No. 19-1061
In the

Supreme Court of the United States
DR. REDDY’S LABORATORIES, LTD.
AND DR. REDDY’S LABORATORIES, INC.,,

Petitioners,

v.
ELI LILLY & COMPANY,
Respondent.
CERTIFICATE OF SERVICE
I am counsel for Petitioners and a member of the bar of this Court. I certify that,
on May 26, 2020, a printed copy of Petitioners’ Reply Brief was sent by commercial
carrier for overnight delivery to the Supreme Court of the United States, and by
commercial carrier for overnight delivery and e-mail to the following counsel for
Respondent:
Adam L. Perlman
LATHAM & WATKINS LLP
555 Eleventh Street, N.W., Suite 1000
Washington, DC 20004
adam.perlman@lw.com
Counsel of Record for Respondent Eli Lilly & Co.

William H. Burgess

